 

KARA KARLSON
Mark BRNOVICH OFFICE OF THE ARIZONA ATTORNEY GENERAL ASSISTANT ATTORNEY

ATTORNEY GENERAL STATE OF ARIZONA GENERAL

March 24, 2020

Scott S. Harris, Clerk

Supreme Court of the United States
One First Street NE

Washington, D.C. 20543

Re: Arizona Libertarian Party v. Hobbs, No. 19-757
Dear Mr. Harris:

I represent the respondent in the above-referenced case. The petition was filed on
December 9, 2019 and the response requested on January 30, 2020. Respondent's brief in
opposition is presently due April 1, 2020.

I write to request a second 30-day extension of time to file the brief in opposition.
Granting an extension would change the response brief deadline to May 1, 2020. This
extension is requested due to the unprecedented diversion of resources required to ensure
other normal election-related matters are not disrupted due to the COVID-19 pandemic. I
have contacted opposing counsel and they do not oppose.

A 30-day extension is warranted under these circumstances. Thank you for your
attention to this matter.

Sincerely,
/s/ Kara M Karlson
Kara Karlson

Counsel for Secretary of State Katie
Hobbs

ce: counsel of record for petitioner

2005 N CenTRAL Ave, PHOENIX, AZ 85004 « 602.542.4686 © 602.542.4849 » www.azac.cov
